No.
IN THE
SUPREME COURT OF THE UNITED STATES
DAVID SNYDER
Petitioner
v.
THE ALABAMA MADISON COUNTY
DEPARTMENT OF HUMAN RESOURCES
Respondent
PROOF OF SERVICE
I, David Snyder, do swear that on December 4,
2020, as required by Supreme Court Rule 29, I
have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on the responding
party’s counsel, who is the only person required
to be served, by depositing an envelope
containing the above documents in the United
States mail properly addressed to her with firstclass postage prepaid. The name and address of
the person served is Elizabeth Hendrix, P.O. Box
304000, Montgomery, AL 36130. I declare under
penalty of perjury this is true & correct.
Executed December 7, 2020.

David Snyder

39

APPENDIX
APPENDIX A Decision of the Alabama Court
of Civil Appeals

40

